<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. FOREST SERVICE FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-39]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-39
 
 THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. FOREST SERVICE FOR FISCAL 
                               YEAR 2018

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-980                  WASHINGTON : 2018              
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                                WITNESS

Tidwell, Tom, Chief, U.S. Forest Service, U.S. Department of 
  Agriculture....................................................    10

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Article by Brittany Patterson dated June 7, 2017 entitled 
      ``Zinke, Perdue embrace status quo on fire policy''........     4
    Chart regarding Budget Decreases.............................     7
    Chart regarding Budget Cuts for Volunteer Fire Departments...     9
    Map issued June 1, 2017 and produced by Predictive Services, 
      National Interagency Fire Center entitled ``Significant 
      Wildland Fire Potential Outlook--August & September 2017''.    22
Cortez Masto, Hon. Catherine:
    Map issued June 1, 2017 and produced by Predictive Services, 
      National Interagency Fire Center entitled ``Significant 
      Wildland Fire Potential Outlook--August & September 2017''.    29
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Tidwell, Tom:
    Opening Statement............................................    10
    Written Testimony............................................    12
    Responses to Questions for the Record........................    45


                   THE PRESIDENT'S BUDGET REQUEST FOR


                        THE U.S. FOREST SERVICE


                          FOR FISCAL YEAR 2018
                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning.
    The Committee will come to order. We are still waiting on 
the arrival of Senator Cantwell, but I understand that she will 
be here imminently. Recognizing that we have several votes that 
are set to commence around 11 o'clock, I would like to try to 
get things underway expeditiously here.
    We are here this morning for the first of three budget 
hearings that we will conduct between now and next Tuesday. The 
topic this morning is the President's request for the U.S. 
Forest Service for Fiscal Year 2018. As we prepare to review 
that proposal, we welcome back the head of the Forest Service, 
Chief Tom Tidwell, to our Committee.
    It's good to have you back. We appreciate you being here. 
For you and I, this is a little bit of deja vu all over again 
because we did this just last Wednesday in the Interior 
Appropriations Subcommittee. The venue has changed a little 
bit. My views are the same so it is probably going to be--you 
are thinking it is going to be--an easy one, but know that I 
have saved all my hard questions for you for this morning. I do 
appreciate the opportunity to continue with that line of 
questioning.
    The President's request for the Forest Service for FY'18 is 
$4.7 billion. That is $880 million less than last year when we 
factor in the $342 million in emergency funding that Congress 
provided above the 10-year average in the event of a severe 
fire season.
    In Alaska, our fire season is already well underway, so 
this funding is, once again, a priority for me. While we are 
hoping for a better year compared to recent years, we have 
already had almost 200 fires in the state now in this season. 
Those fires have burned more than 112,000 acres. We have about 
50 fires that are active as we speak.
    The Forest Service request for its Wildland Fire Management 
Program is roughly $2.5 billion. Fire suppression is funded at 
the full 10-year average of just over $1 billion. While the 
budget does not propose a wildfire cap adjustment or any type 
of fix to end fire borrowing, I was pleased to see the 
Administration note that it is prepared to work with Congress 
to find a fiscally responsible solution. Chief, I hope you 
meant that because I certainly plan on taking you up on that 
offer and working with you to find that solution.
    I also appreciate the Forest Service's acknowledgement that 
its primary responsibility is to manage our national forests. 
When making tough funding decisions, we need to make certain 
that we are meeting our basic forest health needs before 
funding other programs. I think it is a good sign that the 
agency's top priority in this request is to invest in national 
forest management.
    Of course, that is not the only way this budget differs 
from the previous Administration's proposal for the Forest 
Service. Rather than a wish list of spending paid for with 
budget gimmicks, this new request proposes real cuts to a 
number of programs. And I mentioned some of them in our 
Appropriations hearing last week. Some of those cuts are worth 
considering, but some are concerning, like the proposed cuts to 
the recreation programs. Some could impact critical forest 
management activities like firefighting and hazardous fuels 
reduction, and some appear to contradict other proposals in the 
budget like the steep cut to capital improvement and 
maintenance which will make the timber target difficult, if not 
impossible, to reach.
    We will look at all of those proposals carefully, but from 
the outset I do have a request. If you are going to worry about 
Forest Service budget cuts, you should also worry about the 
Forest Service management failures because those can have an 
even greater impact on the budgets and the economies of 
forested communities. The Forest Service failing to do its job, 
whether making timber available or something else, has 
significant impacts on real people and we cannot forget that. 
All of us know that those communities would much rather be able 
to shape their own futures instead of being forced to depend on 
unpredictable federal funding.
    Ultimately, what I want is for the Forest Service to do 
more to make our forests the economic engines that they should 
be--not just in Alaska, but in the lower 48 as well. While 
Alaska paints a very stark picture of the need for robust and 
responsible uses of our national forests, the need is 
nationwide.
    Recreation, tourism, and forest products can and must co-
exist for us to have thriving and healthy communities and 
forests. This is not only a matter of federal funding but also 
reasonable access to resources and a real understanding of 
local communities' needs and opportunities. We have not had 
enough of that in recent years, but I am confident this 
Administration will head us in a good direction.
    With that, given that Senator Cantwell has not yet joined 
the Committee, Chief, I would invite you to begin your comments 
and we will have an opportunity to hear from the Ranking Member 
when she arrives. So if you would like to proceed this 
morning--oops, would you withhold this morning?
    [Laughter.]
    Senator Cantwell, I apologize, we were trying to expedite 
things so that we can move to our votes. I have just concluded 
my opening statement, but would invite you to provide the same. 
Thank you.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this hearing. Chief Tidwell, thank you for being here 
today.
    Obviously, the health and the vitality of American forests 
are particularly interesting to people in our state after we 
suffered two of the worst fires a few years ago. I do not see 
how the President's budget even begins to enable the Forest 
Service to fulfill its motto of caring for the land and serving 
the people. This budget would not improve the health of our 
land nor enable you, as Chief, to provide the greatest benefit 
to our citizens.
    I know that I read an article just yesterday that said, 
``Zinke, Perdue,'' meaning our two Secretaries of Agriculture 
and Interior, ``embrace status quo on fire policy.''
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Cantwell. I cannot imagine a universe where anyone 
thinks that status quo at the Forest Service is acceptable, 
particularly in regards to the fires that we have been facing. 
The National Academy of Science has been very specific on this 
in an article they published showing that the current approach, 
the Trump Administration approach, simply falls short in the 
new era of intense fires that we are now facing.
    Treating our forests can reduce the amount of carbon 
released into the atmosphere and scientists are also telling us 
that the increased carbon levels causing climate change and 
extreme weather are major drivers of the fires we are 
experiencing today. So, as you know, we are caught in this very 
vicious cycle. But what is even more stressful is that the 
``status quo'' of the President's budget proposal is to use 
money that would pay for things that we could do up front, like 
thinning and controlled burns, and instead are trying to use 
that dollar to extract fossil fuels on public lands.
    During listening sessions in my state, in places like 
Colville, Wenatchee and Spokane, I have heard the same thing, 
``The science says that we should be focusing our nation's 
attention on funding and getting ahead of the fire problem.''
    I want to highlight a couple of the things in the 
President's proposed budget that reduce funding for 
firefighting. This budget proposes to cut almost $300 million 
from fighting forest fires and another decrease of $50 million 
for preventing wildfires.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cantwell. But the most troubling part of the 
President's proposal is the practice of using the 10-year 
average to budget for wildfires. Neither the President nor 
Congress have used the 10-year average to budget for the 
firefighting since 2015. My colleague here, the Chair of this 
Committee, and also in her role in Appropriations, provided 
enough money in each year's budget to give the Forest Service 
the dollars it needed to fight the fires without robbing from 
important programs.
    Despite these efforts, we have heard just this month the 
Forest Service scientists saying that there is a 50 percent 
chance we will run out of the firefighting money this year, 
even though we have set aside some $1.6 billion for fire 
suppression. If that happens, the Forest Service will be back 
in the inevitable position of borrowing from programs to get 
firefighters to the line, and to make sure that we have the 
equipment and supplies we need to protect our communities. This 
budget, which goes in the opposite direction, which proposes 
cutting $300 million from fire suppression, is not the 
direction we need to go.
    I hope that today we can discuss these important issues. We 
need better protection of our communities and firefighters, and 
we need to make real investments that will make our forests 
more resilient.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Cantwell. We need to use our resources more 
efficiently on things like hasty response--hasty response is 
tools that help the community respond faster. I know you know 
this, because you have heard from many people in our state. 
Ideas like the pine pilot help us reduce fuel and put money 
into things like cross-laminated timber.
    I also do not understand the prohibition in this budget on 
the Land and Water Conservation Fund. The Forest Service uses 
the Land and Water Conservation Fund to make the working 
forests help maintain our rural jobs and stabilize our forests 
and product infrastructure, so I do not understand that 
prohibition.
    Obviously, I could go on and on about the recreation 
economy and how important those things go together with our 
national forests. They stimulate our economy, they give people 
access and we need to continue to make investments in that 
infrastructure.
    Chief Tidwell, I cannot decide what I should focus more on 
in this budget proposal. I could have talked about how we do 
not see any interest here in the Secure Rural Schools (SRS) 
program. I see my colleague from Oregon is here. I am sure he 
will mention that. I could have talked about the proposal to 
zero out the legacy road and trail programs which we use in our 
state. I could have talked about the elimination of funding for 
collaboratives. My colleague and I had a chance to have 
breakfast a week ago with the Secretary of Agriculture, and he 
told me he just came back from the Pacific Northwest and heard 
what great things collaboratives were and that we had to 
encourage more of them. And then, here we are in this budget 
proposal not focusing on them . . . actually trying to cut 
funding for them.
    So, anyway, lots to talk about. I am sure we will get a 
chance in the Q and A. Again, sorry for my delay, Madam Chair, 
this morning, but this is such an important hearing. I am glad 
we are having it and look forward to having a chance to ask 
questions of our witness, Chief Tidwell. And I thank him for 
his service.
    The Chairman. Thank you, Senator Cantwell.
    Chief, if you would like to present to the Committee this 
morning. Welcome back.

  STATEMENT OF TOM TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Madam Chair, Ranking Member Cantwell and 
members of the Committee, thank you again for the opportunity 
to be here to discuss the FY'18 budget request for the U.S. 
Forest Service.
    Our budget request is really just driven by addressing some 
of the key priorities that we need to continue to work on. And 
it's one to restore the health of our forests and grasslands, 
it's to reduce the threat of wildfire to our communities and to 
provide the public service that helps to sustain rural 
communities across America.
    This budget does provide for us to be able to treat 2.4 
million acres to restore the health of our forests and 
grasslands and we predict it will produce 3.4 billion board 
feet. With this budget request, it also will allow us to treat 
1.7 million acres of hazardous fuels in the wildland-urban 
interface to help reduce that threat. It also provides for all 
the resources we need to be able to continue our success record 
of suppressing 98 percent of our fires during initial attack. 
And as you both mentioned, it does provide for the 10-year 
average cost of wildfire suppression.
    And I want to thank both of you and members of this 
Committee for their ongoing support and leadership to find a 
solution to be able to fund, or find a solution, to the cost of 
wildfire suppression.
    Back in 1998, 16 percent of our budget was in our fire 
programs, and today it's over 53 percent with a projection that 
by 2025 it's going to go to 67 percent. The 10-year average has 
increased $156 million from FY'16 to FY'18, and this is part of 
the problem as we've had to propose some very difficult 
reductions in our budget request. But part of that is driven by 
this constant need to be able to increase the 10-year average.
    So each year that I've been up here, over numerous years 
now, I've been talking about the need to find a solution. So 
when you think about--and within our appropriation we can deal 
with 98, 99 percent of the 7,000 fires that we deal with on an 
average year--it's that 1 percent that usually results in close 
to 30 percent of our costs. And it's what, it's so difficult 
for us to be able to budget for that. It's difficult for me to 
be up here to tell you this is how much money I need and with 
the, you know, with our best scientists they can predict, like 
for FY'18 that we'll have a range of about $1 billion between 
the low end of fire costs and the high end. And we're 90 
percent confident it's within that $1 billion range.
    And so, this is one of the things that I want to continue 
to work with you to be able to find a solution to this because 
it has an impact, not only on our annual work when we have to 
transfer, but it has a continual impact on the erosion of our 
ability to manage our forests, to manage our grasslands and 
provide that service with year after year that the 
Appropriations Committee has to continue to put more money into 
the 10-year average.
    I appreciate the concern on the reductions that our budget 
request is making, but it's a combination of being able to 
focus on the highest priority work and at the same time to be 
able to deal with this need to be able to increase our 10-year 
average.
    I look forward to having a discussion with you and to be, 
hopefully, be able to make the case today that our national 
forests and grasslands, our nation's forests, they're a good 
investment for America. It's not only the economic activity, 
the jobs that are supported through the work and off these 
lands: it's the water that's needed for agriculture, it's the 
water for the 60 million people in this country that rely on 
the water off our national forests, it's the wildlife, it's the 
fisheries, it's the outdoor recreation, that all provide for 
the quality of life that we're able to enjoy in this country.
    With that, I look forward to addressing your questions 
today.
    [The prepared statement of Mr. Tidwell follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    The Chairman. Thank you, Chief.
    I should also note that Sherri Elliot is also with us this 
morning and is, I understand, prepared to answer any questions 
that may also come before the Committee.
    Did you wish to make a statement, Ms. Elliott?
    [No response.]
    Great. Thank you.
    Chief, let me ask a question about air tankers. This was 
something that did not come up at the Interior Approps 
Subcommittee hearing last week, but something, obviously, that 
we have been following. Over the past few years we have seen 
privately owned and operated, large air tankers that continue 
to demonstrate their ability to respond to these wildfires, and 
many are operating under exclusive use, multi-year, next-
generation contracts from the Forest Service. They have been 
working with us as we work on this path toward modernization.
    I understand that Forest Service expects to issue a new 
round of exclusive use, next-generation, 3.0 contracts for 
operation in 2018, really moving this transition from legacy 
World War II and Korean War era piston engine aircrafts to 
newer, turbine-powered equipment.
    My first question, what is the timing and status of the 
next-generation 3.0 solicitation?
    Mr. Tidwell. Madam Chair, we're moving forward with the 
process to start the solicitation for this next round of large 
air tankers. And to do it so that by the time the legacy 
aircraft come off that we'll be able to replace the legacy 
aircraft with additional next generation aircraft. And so, 
that's our schedule, to be able to do that so that as those 
legacy aircraft come off of contract, then we'll be able to 
bring on additional next generation.
    The Chairman. Do you anticipate the solicitation this year?
    Mr. Tidwell. Indeed, it will be later this year, yes.
    The Chairman. I think you know that I have some concerns 
about the Forest Service buying air tankers and, just more 
generally, having a government-owned fleet. I think we 
recognize that there is more to operating an airplane than just 
owning one.
    Our private owners, our operators, they have experience, 
they have made the investments to respond to the government 
specs for modern firefighting assets, and yet, they ultimately 
end up competing with the Federal Government for the work. So I 
have a series of questions to you in that vein.
    We were told that the number for the large air tanker 
modernization strategy was somewhere between 18 and 28 next-
generation, large air tankers. Are you still looking at that 
many air tankers to bring online?
    Mr. Tidwell. Yes. As we have found with the next-generation 
aircraft, they are actually proving to be even more effective 
than what we first anticipated as we've been able to understand 
the capabilities of the aircraft. The pilots have gained 
experience, our folks have gained more experience, with these 
faster aircraft that can deliver much larger loads.
    But our strategy still holds that that range between 18 and 
28 with, I believe, as we continue to see the number of homes 
that are built in the wildland-urban interface and the 
conditions that we face that we'll probably be closer to the 
28. For this year we have 21 large air tankers that are 
available. In '18 we will have another 21 that are available 
plus the planes that we can bring on with call-when-needed.
    And so, that's our current strategy. And as we continue to 
be able to bring on additional aircraft and understand their 
capabilities, we'll adjust the number of planes that we need to 
just ensure that we are/can respond with adequate resources.
    The Chairman. But what do you think the message is, though, 
to the private owners, to the operators, who have stepped up to 
meet the demands as you are looking for that modernized tanker? 
They have made the investments, they have made the commitments, 
and now you are saying, well, the effort is to move away, to 
basically have a government-owned fleet and--in terms of what 
we are doing with the exclusive-use fleet of air tankers--you 
have next-generation, private-owned and operated aircraft that 
can meet that need and yet, you are effectively saying you are 
not going to be needed. The investments that you have made are 
not going to be utilized.
    Mr. Tidwell. So the majority of our large air tankers will 
continue to be privately-owned and privately-operated. As we 
bring on the C-130Hs that have been provided for us over the 
next few years, they too will be operated and maintained by 
private contractors. We're still going to need people to step 
up, to be able to fly, operate and maintain those aircraft.
    The Chairman. So how many of the C-130Hs, these military-
converted aircraft, do you anticipate you will have as part of 
your fleet?
    Mr. Tidwell. We'll have seven of those but it will not be 
until 2021 before we have all seven available. So over the next 
few years we'll be bringing on probably one plane at a time. 
That's what we've been flying the last couple years. But it 
won't be until 2021 where we have all seven. Those aircraft 
also have a life span of anywhere from about 8 to 12 years. So 
it's one of the things we just have to look at to be able to 
factor that into the overall strategy.
    I really appreciate how the industry has stepped up to be 
able to make the investment and providing the next-generation 
air tankers, but I also remember the year when we didn't have 
large air tankers because the contractor at that time chose not 
to meet the contract specs and we had to go through a fire 
season where we did not have an air tanker fleet.
    Now, I don't anticipate that will ever happen, but I think 
there is some benefit to have a mixed fleet where we will 
continue to rely by the majority of the planes will be 
privately-owned and operated, but I think there's some benefit 
for the government to have a few planes that are owned by the 
government but operated by a private company so that we just 
have that, a little bit of insurance, that we'll always have 
aircraft that can fly.
    The Chairman. Okay, we will keep on this conversation, but 
let me turn to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I, too, want to follow up on this, but I am going to defer 
to my colleague from Oregon because he has a tight time 
schedule this morning and I want to allow him to ask his 
questions.
    Senator Wyden. I want to thank my friend from Washington 
State for her courtesy, and I want to be clear that I am very 
much looking forward to working with the bipartisan leadership 
here, Senator Murkowski and Senator Cantwell.
    This debate has been the longest-running battle since the 
Trojan War, and the reality is, you can almost set your clock 
by it. The infernos come to Oregon and Idaho and Senators Crapo 
and Risch and I traipse over to the National Interagency Fire 
Center to talk about our bipartisan push to change the system 
of fighting wildfires.
    I think we all understand, certainly the three of us who 
have been at this for years and our colleagues, that this is a 
broken, common-sense-defying system of fighting fire where you 
borrow from prevention to put the fires out and then the 
problem just gets worse.
    Senator Crapo and I have had this bill that now has more 
than 250 organizations of scientists and timber companies and 
environmentalists supporting it. I think the question is, how 
do we make the story different this year? How do we finally end 
the gridlock? The three of us, I know, feel very strongly about 
getting there.
    I think what I would like to start with, Chief--you have 
been involved with us every step of the way, supported the 
legislation. Since we have been at this over four years, what 
has been the cost of inaction?
    Mr. Tidwell. Well Senator, there are several ways to look 
at that. You know, one of the ways is, I think back when we 
first started this discussion, if we could have found a 
solution it would have stopped the erosion of our active forest 
management programs, all the programs that provide the service. 
I think about the additional acres we could have treated over 
the last four years if we wouldn't of had this impact on the 
appropriator's ability to prevail/provide the funding.
    If you look out over four years and you look at just the 
growth of, you know, the 10-year average, we could have easily 
been treating millions of more acres over the last four years. 
And then think about into the future, about the next 10 years.
    So just with $156 million increase in the 10-year average, 
think about that over the next 10 years, $1.5 billion. And just 
think about what we could accomplish, the tens of millions of 
acres that we could treat to make a difference.
    We have the science, we have the experience, and we have 
study after study that shows that our projects are effective to 
reduce the cost of wildfires. It reduces the severity of 
wildfires. And there are independent studies that show that 
this work makes a difference and that we can reduce the size of 
wildfires by anywhere from 30 to 70 percent and on average 41 
percent by getting out there and doing the work. You've seen 
examples in your state. Senator Daines has seen examples. 
Senator Cantwell. Senator Murkowski. All of you have seen 
examples of this work that's being done.
    Our challenge is to be able to get to a place where we can 
rightsize our budget so that we become more of that active 
management agency. And yes, we'll continue to do the wildfire 
suppression job and we'll continue to excel at that. But that's 
just one way to be able to capture that. And I can go on about 
the number of homes that have been lost.
    Senator Wyden. Why don't we hold the record open, but I 
think that is particularly important for members to know that 
it is not some abstract thing, that the costs of inaction are 
extraordinary whether it is the millions of acres that could 
have been treated, homes lost, that kind of thing. So if you 
could get us that for the record.
    One other question, if I might. You were extraordinarily 
helpful to us on the stewardship contract, as you know, in John 
Day--a huge victory for a community that would have really been 
lights out on mills in Eastern Oregon without your intervention 
there--tripling the harvest on the Malheur. The stewardship 
program works very closely, although it is separate, with the 
Collaborative Forest Landscape Restoration (CFLR) Program. 
Despite the success we have had with that Collaborative Forest 
Restoration Program, it is being zeroed out in the President's 
budget, in my view, this is exactly what we ought to be 
expanding. I do not want to get you into politics and the like. 
You and I have talked about that over the years.
    What is your response to the proposition of whether the 
Collaborative Forest Landscape Restoration Program is helpful, 
cost-effective and a positive force for rural Oregon and rural 
America?
    Mr. Tidwell. So the CFLR projects have proven to be very 
effective. This concept of dedicating funds over time to large 
landscapes at a minimum of 50,000 acres and to do it in a 
collaborative way has not only increased the amount of work 
that's getting done, it's also resulted in a lot of financial 
contributions from outside the agency. The model has been 
proven to be tremendously successful and, with our CFLR Program 
over the last few years, we've been producing about 400 million 
board feet a year off of those projects.
    Now, the budget zeros that out, but it doesn't stop us from 
using this model across the board to be able to make this long-
term, dedication of funds to large landscapes and doing it in a 
collaborative way. I think it is a proven model. It took a few 
years for us to get started. But if you look at the results of 
this, I think it shows this is the right way for us to work, 
and there's nothing in our budget request that prevents us to 
be able to do that.
    Those 23 projects that are currently ongoing? They now will 
just have to compete with all the other work. We will not have 
dedicated funding for those projects.
    Senator Wyden. Thank you.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Chair Murkowski, Ranking Member 
Cantwell.
    We have had a string of very unfortunate events recently 
happening in Montana. Most are linked to Federal Court 
decisions that I know, Chief Tidwell, you are aware of.
    We have seen good, responsible, common sense, 
collaborative, forest management projects shut down because of 
the Cottonwood decision.
    Then just two weeks ago, we saw the halt of a thoroughly 
researched and vetted Forest Service project, the Montanore 
Mine. The Forest Service estimates this project will provide 
full employment of 450 people at full production with an annual 
payroll of $12 million during the production phase of 
operations and the indirect economic benefits are even greater.
    This is in an area of Montana that has some of the highest 
unemployment in our state. In fact, this is Lincoln County. I 
remember a conversation a few years ago with a couple in 
Lincoln County and they said, ``Steve, what we basically have 
up here in Northwest Montana is poverty with a view.''
    We have these elitists that will sometimes fly in on their 
private jets and seek to shut down what is going on in Montana 
in terms of common sense, responsible, natural resource 
operations. Likewise, this mine will provide important 
minerals, such as silver and copper, that the United States 
uses in everything from our phones to wind turbines.
    Chief Tidwell, can you give an update on what the next 
steps are for the Montanore project? And do you share my 
commitment to see this important project move forward?
    Mr. Tidwell. We're currently just reviewing the decision 
that we received on that project and at this point haven't 
determined the next steps. But we're just currently reviewing 
that decision.
    Senator Daines. Yes, I cannot think of a strong enough 
term, but outrageous would come to mind for starters, of what 
happened there and we need to get that resolved.
    Chief Tidwell, I strongly support the Administration's 
emphasis on increasing management in our national forests, but 
I think we can and must improve management on federal lands 
while continuing efforts to also improve forest health on 
family-owned and cross-boundary lands.
    As we all know, wildfire is not a respecter of the 
boundaries that we draw on maps and neither is forest 
management. I recently joined Senator Amy Klobuchar of 
Minnesota in sponsoring legislation to encourage partnerships 
between the state forests and the Forest Service to carry out 
such landscape restoration efforts.
    My question, Chief Tidwell, is can you speak to the value 
of empowering state foresters to do more cross-boundary work, 
including on national forests, using this Good Neighbor 
Authority?
    Mr. Tidwell. Well Senator, the Good Neighbor Authority is 
also proving to be very, very successful. It took a couple 
years for us to, kind of, put the process together where we 
work very closely with the state foresters so that we had a 
process that not only worked for us, but more importantly, 
worked for them. And because of that we are moving forward to 
be able to increase the work that's getting done on the 
national forests.
    And your point that we need to be looking at this more as 
an all-lands approach is exactly what needs to occur. We need 
to be reducing the fuels, thinning out our forests on both 
sides of the fence. Doing it on just one side doesn't 
accomplish the success that we're after.
    So Good Neighbor Authority, we currently, I think, we're 
doing 74 projects across the country. We have eight master 
agreements with states and we're planning to increase that. 
Most every month we're bringing on another state that wants to 
work with us. We've had some great examples in your state where 
we're working closely together. Your state has also provided 
additional resources to be able to increase the amount of work 
because they recognize the difference that this can make.
    And yes, the jobs are essential. Being able to maintain the 
industry is absolutely essential. But it's also the difference 
that we're making on the ground to reduce that threat to be 
able to prevent that blacked landscape to have more green----
    Senator Daines. At a discussion just two weeks ago in 
Montana, we had members of the Rocky Mountain Elk Foundation 
there with us. When we talk about wildfire and reducing 
wildfire risk, we talk about jobs. But wildlife habitat is 
something--we are seeing the elk population declining, not 
because of wolves, not because of hunting pressure, but because 
the forests have gotten so thick the elk are not able to get to 
the grass because the canopies then prevent the sunlight from 
getting down to the ground and having, basically, habitat for 
elk.
    Lastly, a follow-up. Would you agree that landscape-scale, 
wildfire mitigation across all forest ownerships is both 
necessary and crucially important?
    Mr. Tidwell. Without any question. And we have the studies 
that show that if we take this all-lands approach, we can be 
highly, highly, successful and have a very different 
consequence when we do get fire. And we'll continue to have 
fire, but there's a big difference from a fire that has a 
lightly burn to moderate burn that was easy to suppress, 
reduces the risk to our firefighters versus some of the severe 
fires that you've seen in your state.
    Senator Daines. Alright. Thank you, Chief Tidwell.
    The Chairman. Thank you, Senator Daines.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Tidwell, the budget proposal would also be reducing 
funding for volunteer fire departments by 23 percent. Now this 
is a very big concern to us. If there is one thing I have heard 
loud and clear from communities all across my state it is that 
they are playing a key role because of the number of fire 
starts that are there, and oftentimes they are the first 
responders to these fires and helping us do whatever we can to 
help contain them as other people come onboard. So isn't this 
just going to make the whole fire-suppressing budget more 
expensive overall, if we cut the funding here to these 
volunteer community organizations that are helping us?
    Mr. Tidwell. Well Senator, this is just one of the very 
difficult choices we had to make with this budget request. And 
yes, our volunteers are essential. They're often the first 
responders that this country relies on. With this budget 
request there is less funding that will be available, but we 
will continue to do what we can to provide the equipment, the 
surplus federal equipment, that's so essential to these 
volunteers. But it's just another example of some tough choices 
that we have.
    I want to come back to the need to fix the fire funding 
problem that we have, and this idea that each year we have to 
continue to increase the amount of money we put into fire 
suppression. That takes away the discretion to be able to 
provide for other programs. It's just another one, another 
example, of the things that could change if we can find a fix 
for dealing with fire suppression.
    Senator Cantwell. Well, I will guarantee you my colleagues 
here in the United States Senate are well on their way to 
having that fixed--we have a kind of determination. We have to 
get some of our colleagues in the House on board, who did not 
think taking up legislation at the end of the year was a 
necessary item.
    But I still do not think that that means in a budget that 
you, in an environment where we are seeing drier, hotter 
conditions and this year--I do not know if we have the map of 
where things are going to be--but we already know where this 
year's fire season is going to dominate. It's going to dominate 
in Northern California and Northern Nevada. They are going to 
take it on the chin, just as the Okanogan did, just as the 
Carlton Complex devastated over 100,000 acres in, basically, an 
afternoon.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cantwell. So we need to make sure--because I think 
the public probably gets it if they slow down and think about 
it--these forests are in rural communities, and the problem is 
large-scale. Oftentimes these volunteers are the only people 
there for first response. I hope that as my colleague and I 
continue to work on this, we certainly will not be 
shortchanging the volunteer fire departments because they are 
our best resource, in my opinion, right now to help us have a 
hasty response to wildfires.
    The collaboratives--my colleague just mentioned this--I 
also do not understand zeroing out collaboratives. These are 
things that have given us our best effort to date on working 
collaboratively. We can talk, as I have, on the pine pilot 
where we can get collaboratives to be even more successfully 
implemented, but why zero out collaboratives?
    Mr. Tidwell. Well Senator, the request zeros out just 
dedicated funding to that one program but it doesn't prevent us 
from working that way and continuing our work with 
collaboratives. We can still accomplish that same kind of work, 
we just don't have that dedicated funding that, I feel, it 
proved to be successful. And often when you're starting a new 
program it takes that dedicated funding to be able to get 
things started, to be able to provide the message, the 
incentive, for folks to make those long-term investments. And 
so, that's why it's proven to be very effective.
    Once again----
    Senator Cantwell. Are you saying that you will use money 
then for collaboratives?
    Mr. Tidwell. We'll continue to work in a collaborative way 
and those 23 projects will now compete with other projects 
across on the national forests. If they're chosen to be still 
the highest priority work, we can still continue that work. The 
difference is that we just don't have that dedicated funding 
for those projects.
    Senator Cantwell. And so, do you think you are taking away 
a message from people, don't do collaboratives? I am trying to 
understand where you are fitting this in as a priority.
    Mr. Tidwell. Well, that's definitely not the intent. I 
think the collaborative work that's gone on across this country 
has proven to be highly successful. It has proven to be able to 
bring people together to get work done.
    These projects have a really good track record of very 
little litigation and often very few, even, objections because 
of the way that these projects have been put together and with 
this long-term focus of dedicated funding on large landscapes. 
But it's one of the things that I'd like to see us working 
across the board. I think it is the model for how we do our 
work and that those 23 projects have been very successful. But 
we still could be able to continue that. We just don't have 
that dedicated funding.
    Senator Cantwell. Well, we will look forward to following 
up on that with you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair, and thank you both for 
being here.
    Chief Tidwell, I want to talk to you about a couple of 
issues facing my state.
    In 2009, the Forest Service finalized a motorized travel 
plan for the Dixie National Forest which, as you know, is in 
Southern Utah. The plan closed more than half of the roads in 
the forest which substantially restricted recreational access, 
but also blocked a number of practical, economic opportunities 
in surrounding communities. Understandably, local officials and 
residents had a reaction to this, a reaction that was not 
favorable, and they strongly opposed the travel plan and had 
implored the Forest Service, again quite reasonably I think, to 
reopen those closed roads. One of the justifications given at 
the time of the announcement for these road closures was that 
the Forest Service did not have enough money to maintain the 
roads in question.
    As a potential solution, officials in Garfield County, 
Utah, where most of the roads in question are located, have 
offered to assume both the responsibility of maintaining the 
roads and all of the accompanying costs associated with that 
and to do so in exchange for easements that will allow for 
public access. This is a reasonably concocted and mutually 
beneficial exchange that would benefit both the county and the 
Forest Service.
    So, Chief Tidwell, is this a solution you could support?
    Mr. Tidwell. Senator, when it comes to travel management it 
continues to be one of the most controversial issues that we 
deal with. And as we try to rightsize our transportation system 
to one that is what is needed and what we can afford, often 
there are roads that either were constructed or just user-
created roads that through that process--and it's usually a 
process where we're talking to everyone in the counties--that 
we identify roads that need to be closed.
    Now if there are roads that are needed on the 
transportation plan that we're struggling to be able to provide 
the funding, we have a long-running program, Scholars, our 
Schedule A agreements with counties, that when I was a district 
ranger and forest supervisor, I worked with our counties to be 
able to, for them to accept the maintenance on these roads and 
then they do get a little bit of additional gas tax money. But 
to be fair, especially in your state and these counties that 
have small populations, that additional gas tax that they 
receive doesn't fully cover their cost. However, many counties 
are willing to accept that just because they recognize the 
need.
    So that is the program that we've been using and want to be 
able to use it with Garfield County and other counties in your 
state. It's proven to be very successful. They can take over 
the maintenance on these roads that are on our transportation 
plan and they then do get some additional gas tax dollars.
    Senator Lee. But they would have to do it in this way. Does 
this differ substantially from what they have offered you?
    Mr. Tidwell. Well, I think, I'm not quite sure just what 
they're offering. I mean, that's the program that I've used and 
I know that it's available now. But I'm not quite exactly sure 
what they're offering.
    Senator Lee. Okay. But you are willing to commit to 
continue working with the Garfield County officials to try to 
find a workable solution that is mutually agreeable?
    Mr. Tidwell. Yes.
    Senator Lee. Thank you.
    Another prominent issue in Utah involves timber harvesting. 
According to your agency's own numbers, the volume of timber 
harvested on Forest Service lands has decreased by about 80 
percent just over the last 30 years. This decline has been 
crippling to a lot of rural communities in my state and in many 
other states, especially in the West, and especially in 
communities in Southern Utah whose economies relied so heavily 
on timber harvesting. These communities are deeply frustrated 
because timber harvest not only boosts their economies, but 
they also improve forest health and they help protect them from 
the risks associated with forest fires which are then enhanced 
when you do not have adequate management and adequate, 
responsible, environmentally sensitive harvesting.
    Can you tell me, Chief, why is it that we are not allowing 
more timber harvesting when doing so would produce not only 
economic opportunities and aid a lot of these rural communities 
who have suffered so much in recent decades but would also have 
favorable impacts on the health of the forest?
    Mr. Tidwell. Well Senator, we've been working, really, as 
hard as we can over the last few years to be able to increase 
the amount of work that's being done. I've been very clear that 
there's 65 to 83 million acres of our national forests that 
need some form of restoration. And of that, there's 15 million 
acres that we have no other choice but to do some form of 
timber harvest on that. So we've been very clear about the need 
and we've been using programs like the CFLR Program.
    I'd like to share a great success story on the Manti-La 
Sal. I just was watching a video clip where it talks about how 
the mill is now using the dead spruce logs for log homes, but 
then also for saw timber and then using the other products for 
everything from bedding for dairies, to firewood. It's just, it 
shows the success that's out there.
    Our challenge is to be able to get more of that work 
rolling. And where we've made great efficiencies over the 
years, our problem is that we keep losing the staff, keep 
losing resources to be able to get at this work. And it's 
driven by this constant pressure to increase our funding in 
wildfire funding. And so, that has been one of the biggest 
challenges. So today, from back in '98 when I left your state, 
there are 50 percent fewer foresters today than we had in '98, 
39 percent fewer Forest Service employees outside of our fire 
programs.
    Now at the same time, we've reduced our unit cost by 33 
percent. So we've been able to, kind of, stay status quo. But 
to be able to get at the work that you're talking about, we 
have got to be able to stop this erosion of our other programs 
and really rightsize the agency so that we can be responsive.
    We have the support, the social advocacy, for doing this 
work and I'm going to share that success story with you on the 
Manti-La Sal because it's the perfect example of what needs to 
be done when we can come together and provide a little bit of 
our side of the work that needs to occur so that these folks 
can go to work in the woods. We're committed to be able to 
expand this.
    We also need to be able to expand our markets. There's just 
no question. And that's why this example, I was just so 
impressed with it because they show how they're using every 
single piece of that log that comes off the forest and even 
whether it's in the sawdust or chips or firewood or logs or saw 
timber, that is the model. And these folks are just doing an 
excellent example.
    Our challenge is we've got to accelerate. I've been talking 
about accelerating the pace and scale of our restoration work, 
but we've got to get aggressive about this, otherwise we're 
going to be having the same discussion 10 years from now.
    Senator Lee. Thank you, Chief.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, and thank you, 
Chief Tidwell, for appearing before us again. It is always good 
to see you.
    The President has talked a lot about infrastructure, but 
his budget actually cuts investment in our nation's 
infrastructure. For example, the capital improvement and 
maintenance spending at the Forest Service--the President's 
budget cuts it by 73 percent, the facilities budget would 
decline by 84 percent and the roads budget by 57 percent. Chief 
Tidwell, what would be the impacts of the proposed 
infrastructure cuts spelled out in the President's budget?
    Mr. Tidwell. Well Senator, we're going to focus our budget 
request on maintaining the staff and expertise to be able to do 
the facilities work and the road work and the trails work with 
the anticipation of an infrastructure plan that will provide 
the additional resources.
    So, yes, it's going to take both and your point that with, 
just with this budget request, if there isn't an infrastructure 
plan it would be very impactful on our programs, whether 
providing recreational access or access for our timber 
management for our forest management. So it's going to take a 
combination of this budget request plus the infrastructure plan 
for us to carry out our work.
    Senator Franken. I understand. We are six months into the 
new Congress and we have very little clarity about an 
infrastructure bill from the Administration. All we do know is 
that it is going to include tax cuts and encourage public/
private partnerships, but that is not going to help the Forest 
Service build and maintain facilities and roads unless we get 
more details and find that it does. But the bottom line is that 
these proposed cuts are real and they have been spelled out. I 
hope we get a lot more clarity on this infrastructure bill.
    Chief Tidwell, you and I have discussed the devastating 
impacts of climate change on wildfires previously. You have 
been discussing that fighting wildfires is costing us a lot of 
money, more than half of your total proposed budget, and all 
that spending means that preventive measures such as hazardous 
fuels treatment are receiving less funding, not to mention the 
fact that the overall funding for these programs, again, is 
getting cut in the President's budget.
    So I am very interested in exploring how we can find new 
markets for forest waste--you were just discussing that with 
Senator Lee--and do that in order to help pay for removal of 
hazardous fuels and simultaneously bring economic benefit that 
can use waste. Things in Minnesota, unfortunately, are working 
or moving in the opposite direction as wood waste, biomass 
energy, is struggling mightily to compete with cheaper natural 
gas and wind.
    My question is, can you tell us how you see hazardous fuel 
management and what opportunities exist in this space? For 
example, it seems to me that district energy projects and 
combined heat and power plants are an ideal market for these 
hazardous fuels, particularly ones that are located near our 
forests, the wildland-urban interface. I am wondering what you 
see as the future of that kind of market, of that kind of way 
of removing hazardous waste and getting something for it, 
getting a value for it, to make it either cheaper or make, or 
not a net payment at all for removing hazardous waste?
    Mr. Tidwell. Well Senator, there is and it's another key 
part of us to be able to accomplish the overall forest 
management job that we have. We have to find ways to have 
strong, economic markets for all the material that's coming 
off. The saw timber is the easy part. But it's more the small 
diameter.
    And so, to be able to find ways to be able to use biomass 
for energy, to be able to also find ways for--to use the small 
diameter into building materials, like what's called the CLT 
product, excuse me, that can take small diameter material and 
use it into structural timber, into mass timbers. They've been 
doing this in Europe for years where they're building tall rise 
buildings out of wood using mass timber. We are actually 
building two of those buildings in this country today, to be 
able to demonstrate the use of this, and we have two plants 
that are producing the product today and I know of two more 
that are coming online. This is just one of the things that 
need to occur.
    Now, the key to this is a couple things. One, we've got to 
provide certainty so that investors know there's going to be X 
amount of material that's going to be available and not just 
for a year or two. It's got to be for multiple years. So we 
need to invest more in our stewardship contracts that are 
multiyear, ideally 10 years at a minimum, to be able to provide 
that certainty. And then to be able to find ways to incentivize 
the startup of these programs. We do it through our wood 
innovation grants that are helping folks to be able to see how 
to do it, and then to recognize it takes a certain volume to 
make these efforts successful. And so, it's got to be at the 
right scale to be able to move forward. And then, our biggest 
challenge still is the transportation costs.
    Senator Franken. Sure.
    Mr. Tidwell. That is the biggest problem we have with 
moving to small diameter material. If we have a facility that's 
close, it pencils out really well. But the other part of it is 
that we need to recognize the outcome that we're after. And so, 
if there's additional cost to remove this small diameter 
material, we need to think about the overall benefit and to be 
looking at, really, the change we're making on the landscape to 
really carry that investment. And does it make more sense for 
us to pay for somebody to pile up that material, come in there 
and burn it, just put up more smoke in the air, or does it make 
more sense to be able to move that material where we can put it 
to beneficial use, even when it doesn't quite pencil out, but 
it helps to contribute to that outcome that we're after? It's 
just one of our challenges that I'm asking our scientists to be 
able to put the economic information together in a way that 
makes this a more compelling argument about the need for this 
overall investment.
    If you really look at the end outcome, from my view, it 
more than satisfies, it more than carries, the need for the 
upfront investment. The work that we've seen, at a minimum, our 
investment in fuels work and thinning out our forests, it's a 
three-to-one return on every dollar. That's the most 
conservative study. Some studies show it's a nine-to-one 
return. So this is a good investment. Our challenge is to be 
able to make a more compelling economic argument to be able to 
justify that investment.
    Senator Franken. Boy, that answer is just music to my ears. 
I really believe that we can leverage the value of the 
hazardous waste and, even when it does not pencil out exactly, 
that it makes so much sense and maybe this is one way we can 
address and we can prevent fires. We cannot do as much fire 
borrowing as we have been doing.
    I would love for everyone to pay attention to the answer 
that the Chief just gave.
    Thank you.
    The Chairman. Thank you, Senator.
    I do want to correct for the record that we are talking 
about hazardous fuels and not hazardous waste.
    Senator Franken. Yes, yes.
    The Chairman. This Committee is a little bit different, 
particularly to Senator Cortez Masto.
    Senator Franken. No, no, we should not burn hazardous 
waste.
    [Laughter.]
    The Chairman. Just clarifying.
    Senator Franken. I am sorry. Hazardous fuel.
    The Chairman. We all understood, but----
    Senator Franken. Yes, but sometimes I am not precise with 
my language which is ironic.
    The Chairman. We will let Senator Cortez Masto take up the 
hazardous waste part of it.
    Senator Franken. Ironic wasn't the right word.
    [Laughter.]
    Go ahead.
    The Chairman. Thank you, Senator Franken.
    Let's move to Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Chief, I appreciate the conversation today, thank you for 
this.
    Just recently the Forest Service and the Department of the 
Interior, I found out, are projecting a very strong probability 
for Northern Nevada to see wild and forest fires this summer, 
particularly in July and August.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cortez Masto. With the 53 percent cut of the Forest 
Service's budget spent, or actually it's 53 percent of your 
budget spent, on fire suppression, and the cuts that I am 
seeing and particularly, under President Trump's budget, the 
cuts to the Forest Service would impact state and private 
forestry budgets. In fact, the Nevada Division of Forestry 
would experience a 40 percent funding loss. Obviously, that 
would be devastating to us in Nevada--in Northern Nevada and 
particularly the Western states.
    How will the Forest Service address these concerns if the 
Administration's budget is implemented by Congress? I am 
curious.
    Mr. Tidwell. Well Senator, we will make the most of the 
funds that we receive to be able to continue to work with the 
states and with the counties to be able to do the work and to 
provide as much assistance as we can to the counties and the 
states, especially for the volunteer fire departments. But 
there's no question that there's going to be impacts from our 
proposed reductions. They're not easy, they're difficult, and 
there's none of them that I really like. But it's just the 
reality of having X amount of money and really where we want to 
focus our funds, and that's what this budget does.
    One of the things I need to point out, it's the second time 
the map has been put up. And yes, in your state later this 
summer we expect to have an above active fire season. The thing 
I need to point out is all that white, that's a normal fire 
season.
    People need to remember that normal fire seasons are much 
more active than what they used to be. If you look at the top 
ten fires that we had last year, yes, California was the red 
area on the map last year and we had, I think, probably four or 
five of those large fires. But we had another five very large 
fires that were all in those white areas, so I just wanted to 
make sure that no one is ever misled by our map. But yes, you 
are in the spot, along there with that part of California that 
we expect to have a very active fire season this year.
    Senator Cortez Masto. Which is why I am concerned with the 
recommendations of the budget cuts. There are many things I am 
concerned with in the budget cuts, but obviously for this very 
reason. Let me follow up because I am curious about this.
    As you well know, our Nevada National Guard, our 152nd 
Airlift Wing, is actually outfitted with a C-130 aircraft which 
has the Forest Service's MAFFs equipment. Under Trump's 
recommended budget, how would MAFFs be impacted, and 
particularly, our Nevada National Guard Airlift Wing?
    Mr. Tidwell. This budget request would still provide for 
the same level of large air tankers that we've had and will 
need.
    In addition, we'll continue to always rely on our long-term 
agreement with the MAFFs operation. They provide that surge 
capacity that when we get to those parts of the year, like 
potentially there in August in your state when we have a lot of 
resources out, that we can call up those units, those pilots 
who are trained. We make sure that we do some training 
exercises with them early before the main part of the fire 
season so that they're ready. They are quick to respond, and 
it's amazing how quick they can slip those tanks into their 
aircraft and be able to respond to our fires.
    So they're just a key part of it and under any scenario----
    Senator Cortez Masto. But they won't be impacted----
    Mr. Tidwell. ----there will be no impact on our MAFFs.
    Senator Cortez Masto. The fire suppression retardant, 
MAFFs, will not be impacted at all by anything in the Trump 
budget?
    Mr. Tidwell. Right. No impact.
    Senator Cortez Masto. Okay. Thank you, I appreciate that.
    Thank you very much.
    The Chairman. Senator Cassidy.
    Senator Cassidy. I will pass and go after Senator Hirono.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you very much.
    Chief Tidwell, we know you are very committed to the 
mission of the Forest Service and you just said that you need 
to get a lot more aggressive about advocating for your needs, 
but clearly President Trump is not on your page because his 
budget cuts the Forest Service by $900 million, one-third of 
which has to do with the firefighting account.
    So as we sit here, I do not know how many times we have 
focused on the need for more funds for firefighting and we all 
agree on that, but the President's budget goes the other way. 
Aren't you frustrated?
    Mr. Tidwell. Well Senator, it's always frustrating to not 
be in a position to be able to ask for the ideal funding level, 
but what I'm up here to actually ask you for is this level for 
funding and be able to concentrate on what we're able to get 
done with this.
    But yes, ideally it'd be great to be up here to be able to 
ask about it. I think back to when we first started the 
discussion on trying to fix a solution to the fire borrowing 
and the impact on other programs.
    Senator Hirono. So----
    Mr. Tidwell. And I think about the potential of funding. It 
could have been redirected for active management over these 
years.
    Senator Hirono. Well at this point we are not even talking 
about holding the line, we are actually cutting the Forest 
Service by a lot.
    Let me go on with another question that I have. As you 
know, Hawaii does not have a national forest--and there are 
about ten states that do not have national forests--but instead 
relies on programs administered by the Forest Service that 
cooperate with our state and local partners. One such program 
is important to us and that is the Forest Legacy Program. Other 
states we know and local municipalities, I suppose, or others, 
count on this Forest Legacy Program.
    This program helps conserve and protect Hawaii's forests 
from invasive species, something that we really struggle with 
in Hawaii and provide critical habitat, recharge our 
watersheds, et cetera. And just last year Hawaii received $4 
million, which for Hawaii is very important, for a land 
acquisition project and a conservation easement project.
    Of course, the President's 2018 budget proposes the 
elimination of the Forest Legacy Program noting that in Fiscal 
Year 2018, the Forest Service's focus will be on the 
maintenance of the existing National Forest System lands. I 
believe that there is value in having the U.S. Forest Service 
invest in protecting Hawaii's forests. Do you agree?
    Mr. Tidwell. Well Senator, I agree with the focus of this 
budget request to be able to focus on, you know, maintaining 
and restoring the lands that we currently are responsible for.
    There's no question that the Forest Legacy Program has been 
very successful to be able to keep working landscapes working 
and to provide those conservation easements so that the 
forests, the ranches, continue to be working landscapes. 
There's no question about that.
    But when we're in these difficult budget times, we have 
determined that this year we need to focus on the lands that we 
have.
    Senator Hirono. But that means that there are some ten 
states that will not be able to access the Forest Legacy 
Program because you do not own lands. We have no national 
forests in ten states, so states like Hawaii will be basically 
out of luck. I think that is very unfair to states such as 
Hawaii.
    I had a question about the huge cuts to the Forest Service 
program and what the impact will be on your firefighting 
account but I think we have talked about that enough.
    I mentioned that one of the strategic programs/activities 
in the Forest Service budget is invasive species. The 
President's budget proposes reducing that account by 16 
percent, or $5.3 million.
    In Hawaii we face--and I know you know this--continuous 
onslaught of invasive species that threaten our environment. An 
example is the Rapid `Ohi`a Death, an invasive fungus that has 
been ravaging our native `Ohi`a trees and continues to spread 
across Hawaii Island. Frankly, the death of these trees will 
affect the health of our watersheds on that island.
    Have the number of invasive species threats to our nation's 
forests substantially decreased over the past year and, if not, 
is it responsible to be reducing our investment in invasive 
species detection, research, technology development and 
control?
    Mr. Tidwell. Well Senator, there's no question with this 
budget request that we'll be able to do less work when dealing 
with invasives; however, I'm hopeful that with the level of 
funding that we do have and you then look at the work that's 
been ongoing that support, the awareness of dealing with 
invasives, especially in your state, that we'll be able to 
continue to be able to address this. And so much of it is, a 
lot of it is awareness. There's also the biological controls 
that we need to continue to do the research on to be able to 
find the solutions to that.
    But it's just one of those areas where, once again, we will 
have a significant amount of funding. It's not at the same 
level to be able to continue that work. And yes, we'll be doing 
less, but when I look at what we have ongoing with our partners 
working so closely with the state and with the universities, I 
want to remain optimistic that we'll be able to continue to 
address that problem.
    Senator Hirono. I will certainly be working with you all to 
make sure that we are, in fact, maintaining a level of activity 
in this area and research because $5.3 million is a relatively 
small amount and I think that it should be restored.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Cassidy.
    Senator Cassidy. Chief Tidwell, welcome back.
    Last year you and I discussed the Environmental Protection 
Agency's (EPA) interim recommendations for environmental 
standards as well as ecolabels for use in federal procurement. 
EPA was recommending lumber only, and that recommendation for 
lumber only included the Forest Stewardship Council (FSC)-
certified lumber, excluding other sources.
    In my state, nearly four million acres, or 85 percent, of 
all certified lumber is from two other certification processes, 
the Standard Forestry Initiative and the American Tree Farm 
System. I think last year you mentioned that timber from the 
national forest land is not subject to a certification 
standard. So I am kind of bringing this to a head.
    Your testimony today suggests that expanding markets for 
wood is one of the foci, if you will, for this budget. Could 
the EPA's recommendation to only use FSC-certified lumber 
impact the Forest Service's ability to meet the Fiscal Year '18 
target volume of 3.2 billion board feet of timber sold?
    Mr. Tidwell. Well Senator, Forest Service, we recognize all 
three of the certification programs that have proven to be very 
helpful, especially with our private forested land to be able 
to have access so those additional markets that are driven by 
certification programs, and we continue to work with EPA to be 
able to get that across.
    Senator Cassidy. Now maybe your understanding of this is 
greater than mine, so I do not know the answer to this 
question, except my understanding is that if this EPA reg goes 
forward that for federal procurement the FSC must be the one 
that is used, not the other two. So when you say you recognize 
all three, but if some of the land is not certified with FSC 
clearly that--according to that EPA regulation--that board 
cannot be sold for federal procurement. Is that a correct 
understanding?
    Mr. Tidwell. That's my understanding and I just need to 
clarify, the U.S. Forest Service recognizes all three of those 
certification programs and I've been disappointed that we have 
not been able to convey that in a way to EPA. We're continuing 
to work with them.
    Senator Cassidy. I get that. If that EPA standard becomes 
final, to what degree will that impact your ability in your 
budget to meet your target volume of the 3.2 billion board feet 
timber sold?
    Mr. Tidwell. It--I don't think it will have an impact on 
our ability except when you look at if there's a reduction, you 
know, in markets across the board, there could have a 
corresponding impact on our ability. I mean, last year we had 
500 million board feet that we put up and had no bids on that 
sale, on those sales, which is highly unusual to have that 
level. But it just shows how tight the markets are. So I think 
anything that limits the markets could have a corresponding 
impact.
    Senator Cassidy. So if there is a lot of board being 
purchased for federal procurement and forest land services are 
not able to participate in that sale, you are saying that might 
flood the market for the non-federal procurement, making the 
federal timber less attractive for purchases?
    Mr. Tidwell. You know, Senator, I'd have to ask our folks 
to run some analysis on that.
    My point is that I think all three certifications should be 
recognized. From our view they, all three, provide the 
assurances that people are looking for.
    The wood that comes off the national forests, we don't 
follow a certification program because if you look at all the 
regulations and laws that we follow to be able to, for the wood 
that comes off the national forests, it actually exceeds any 
certification program. And----
    Senator Cassidy. Well I am almost out of time, so let me 
ask--you have mentioned you have been discussing with EPA to 
reconcile, if you will, your standards and theirs. I think it 
is intuitive that it is going to impact the marketability of 
Forest Service land, if their standard is something which is 
not complied with. Just intuitively it is going to happen.
    So can I ask what is the status of those discussions and 
what is the holdup of the resolution of those discussions?
    Mr. Tidwell. Well, it's--we're going to continue to have 
discussions with them, and I don't know what the true holdup 
is. I'll take the responsibility that we just have not, I have 
not made the compelling argument. And if we need to provide 
more information, more data, we are committed to be able to do 
that.
    But this is just one of those areas where, I just think, 
from my viewpoint that all three programs should be recognized 
and that there's no need to recognize just one over the other 
two.
    Senator Cassidy. Can you just, for the record and to our 
office, let us know the details of that communication? And if 
there is a holdup, perhaps we can facilitate the resolution.
    Mr. Tidwell. We can do that, Senator. And I appreciate your 
help on this issue.
    Senator Cassidy. Thank you, sir.
    The Chairman. Thank you, Senator.
    Chief, we have votes that have begun and there are a series 
of three. I have quite a few more questions that I would like 
to ask and I know that Senator Cantwell has some as well. I am 
hoping that you can stay for about a half an hour, maybe you 
can take a quick walk around the building----
    Mr. Tidwell. Yes.
    The Chairman. ----or return some phone calls, but we will 
stand in recess until the conclusion of this series of three 
votes. My hope is that it will be no more than a half an hour.
    Mr. Tidwell. Okay.
    The Chairman. Okay, we stand in recess.
    [RECESS.]
    The Chairman. The Committee is back.
    I will note that we still have one more vote, but I figure 
with the timing, we have about 20 minutes before we have to go 
back for that third vote. Many of my colleagues have indicated 
that they will be submitting questions for the record, so we 
will see what we can do in this time period, see if we can't 
kick it out, but we appreciate you giving the Committee the 
indulgence here.
    Chief, I want to talk about things going on in the Chugach 
National Forest right now. Last week we discussed the 
recreation funding. The budget is looking at about a four 
percent decrease, roughly $10 million. It appears that, not 
only in the Tongass which we discussed last week the problems 
with the outfitter guide permitting, we are seeing the same 
problems in the Chugach. Instead of creating more opportunities 
to grow recreation by permitting outfitters and guides, it 
looks like those activities are being curtailed. We have a 
number of tourism operators that would like to offer new tours 
on the Kenai Peninsula, but the Forest Service has not 
solicited new applications for user days of permit operations 
in nearly three years now--three years is a long time. They say 
it is due to a lack of staff, but they also say there is no 
need for new recreation operations.
    I have heard from numerous guiding operations who have 
applied and were basically told ``check back.'' These guides 
range from heli-ski operators to fishing and mountain guides to 
small boat tours in Prince William Sound. One guide was even 
told come back in seven years--come back and check with us in 
seven years. The website, Chugach's website, says, ``the 
Chugach National Forest is currently not accepting proposals 
for outfitters guides at this time.''
    I just do not understand it. It does not make sense to me 
because last June, a year ago, you issued a memo suggesting 
that we have this streamlined permitting of special recreation 
use permits. It specifically encouraged any forest which may 
have a moratorium on special use permits to reevaluate that 
decision and consider lifting that which, again, would be 
appropriate.
    The question to you this morning is why do we have this 
moratorium on issuing new guide and outfitter permits in the 
Chugach and are you looking to lift that? What are you doing to 
help facilitate opportunities for recreation within this very 
important national forest?
    Mr. Tidwell. Well Madam Chair, I'm not aware of any 
moratoriums and I will personally look into the issue there on 
the forest to be able to address that.
    The Chairman. Let me just ask though, because again, on the 
Chugach National Forest website it says, ``the Chugach National 
Forest is currently not accepting proposals for outfitter guide 
activities at this time.'' I do not know whether that 
translates, whether you call that a moratorium. I look at that 
and say, okay, at this time they are not taking it. But then 
when people are inquiring they are told to check back in seven 
years. To me, that sounds like a moratorium.
    Mr. Tidwell. So Madam Chair, there's no question that on 
some of our forests it takes a lot of time, years, to be able 
to respond. And that's one of the things we're working on to 
change. And it's--we're focusing on reframing our approach so 
that the folks that work on our special use permits can use 
their time on the more significant requests and not be spending 
a lot of time on activities that really don't contribute to any 
more impact than what's already occurring from the public.
    The Chairman. Well----
    Mr. Tidwell. And by doing that we can free up our time to 
be able to address the requests that you just indicated--things 
like the heli-skiing operations--that do take a little bit more 
work than some of our other activities.
    The Chairman. Well, I guess I am even more confused because 
I look at some of these requests--okay, maybe heli-skiing is in 
a different category--but you have a small boat tour in Prince 
William Sound. You already have existing small boat tours 
there. Fishing and mountain guides, to me, these are not big 
considerations. They are not something brand new, carving new 
territory here, but they can be considerable economic drivers 
in terms of building out these tourism opportunities.
    Again, we have had so many conversations where we push so 
hard to try to get the timber cut up so that you can have jobs 
there. We are told by the Forest Service, nope, do not pursue 
that activity. We want you to pursue the recreation 
opportunities. Then when these individuals, these operators, 
try to put themselves forward to do just that, they are told, 
well, come back, check back in seven years.
    You just cannot shut down the forests, you just cannot. 
Some way or another there has to be an effort to revisit this. 
Again, I liked your memorandum from last year that says, hey, 
if there has been a moratorium, revisit this, look at it.
    So the question to you is whether you will revisit, relook 
at what is going on on the Chugach right now?
    Mr. Tidwell. We definitely will revisit and look into that, 
and then also see what we need to do to be able to expedite 
addressing those applications.
    I know that having less staff is not anything that anyone 
wants to hear about, but it is the reality. And each year we 
receive over 6,000 special use applications that we have to 
process. Over the years we've been able to actually reduce that 
backlog by about 33 percent, but that's still a lot of folks 
out there that we are not able to respond to in a timely way.
    The Chairman. I understand that, and I am asking you here 
this morning if you will commit to looking specifically at what 
is going on in the Chugach.
    Mr. Tidwell. I will.
    The Chairman. Thank you.
    Let me ask about another Chugach issue, and this is one 
that you are also aware of. This is the Cooper Landing and 
Resurrection Pass Trail.
    For about 40 years now we have been trying to clear a route 
to move the Sterling Highway near Cooper Landing on the Kenai 
Peninsula. This highway runs within feet of both the Kenai and 
the Russian Rivers. This is an area where we have about half of 
Alaska's population that flows through every year.
    One potential bypass route at Cooper Landing is the Juneau 
Creek alternative. It has the support of conservation, fishing, 
community groups, the Department of the Interior and the 
Department of Transportation. A land exchange to adjust the 
boundary of Mystery Creek Wilderness is in the works. The one 
issue holding it up is an objection by the Forest Service 
because they say the route would cross the Resurrection Pass 
Historic Trail, but the Trail is not actually impacted because 
a bridge would be built over Juneau Creek Canyon so the Trail 
can then pass under the bridge.
    So I am asking this morning if you will commit to having 
the Forest Service reexamine the agency's comments during the 
Environmental Impact Statement (EIS) process concerning the 
Juneau Creek alternative and then commit to considering 
supporting that alternative in revised comments before Federal 
Highway.
    Mr. Tidwell. Well Senator, it's my understanding that we 
have provided comments on all the alternatives, but we do not 
have a position on any one of them which is preferred, but we 
will look into this to make sure that there's a clear 
understanding of the comments that we've presented and that, 
but we do not have a position on any of them as a preferred.
    The Chairman. Well, I appreciate you saying that you will 
reexamine or relook at this. Again, this is a unique situation 
where virtually everybody else has come to a consensus position 
and it is the Forest Service that is the only hold out here. So 
I just ask you to, again, reexamine.
    Let me shift down south to the Tongass. The Forest Service 
five-year timber sale schedule indicates that there will be no 
timber sales within any proximity of the Viking Sawmill. You 
know well about Viking. But it is my understanding that until 
about 2020, that is going to be the situation.
    It is also my understanding that the agency has three 
National Environmental Policy Act (NEPA) teams that are working 
in the region, but only one is working on a project that can 
help supply the mill. Even if that project is successful, it 
does not do much to restore a three-year supply of timber.
    Viking's situation, we always talk about Viking kind of 
hanging on by their fingernails. Once again they are looking at 
a situation where they expect their timber supplies to be 
pretty much depleted by 2020.
    I am asking this morning whether the Forest Service would 
commit to adding additional timber sale teams to supplement the 
current five-year schedule and then really, what else is 
possible? What else can be done to ensure that we do not lose 
Viking?
    Obviously, we have worked very aggressively here on Mental 
Health Trust to help facilitate that and we have been 
successful with that but, again, so much of this hinges on the 
viability, the continued viability, of the only medium-sized 
mill left in Southeast Alaska.
    What is the survival plan here for Viking? And can you get 
an additional timber sale team to look at this five-year 
schedule?
    Mr. Tidwell. Well Madam Chair, I would really like to be 
able to add an additional team there and an additional team on 
maybe every forest and we'll do what we can within the 
resources that we receive.
    It's my understanding that folks are working together with 
the state and Sealaska to have a program of work that will 
provide a volume of timber to ensure, not only Viking, but the 
other operators. And that over time, you know, our commitment 
is to continue to increase that to ensure that those businesses 
stay open. They're key to sustaining those communities. And so, 
it goes way beyond just what we talk about here.
    This, you know, the timber production on the Tongass, for 
me, is really essential to sustain communities. That's what 
it's about. And yes, it makes use of renewable resources. It 
provides, you know, some wood locally. It provides a lot of 
jobs but it sustains those communities.
    So, if our budgets, as we move forward, if they provide for 
that flexibility for us to be able to add, to get additional 
work with everything else that we're doing, that's ongoing, I'd 
be glad to look at that to be able to get more done.
    As you and I have talked, I think I'm committed to be able 
to show that we can have a sustainable flow of timber off the 
Tongass, and that as we move forward, to be able to show that 
the things that we're working on will make a difference.
    The work that we're doing with the state right now, they're 
currently working through a Good Neighbor Authority to be able 
to do the sell at layout and also even the appraisal on a sell 
this year so that we can learn from the state about their 
processes, so we can find, you know, additional efficiencies, 
not only in how we do our work, but then also, with their 
appraisal system.
    It's one of the things that we need to also make some 
adjustments to our appraisal system so that when we do put a 
sale up, we can ensure that it's something that's going to be 
viable, even if, like on projects like the Big Thorne, that are 
over multiple years, we got to have the flexibility to be able 
to adjust the rate on those sales to ensure that they stay 
viable.
    So it's a combination of all of those things, that's what 
it's going to take to be able to ensure that we're doing 
everything we can to sustain those communities.
    The Chairman. Well, and recognizing your offer here to show 
us how we are going to make this all happen, I would ask that 
you help me with the rationale for the young growth transition 
and this assertion that somehow they are going to be revenue 
positive.
    I would ask you to provide me with the financial analysis 
for the young growth transition and whatever background 
supporting materials are out there that led to this position 
that you believe it will be revenue positive.
    Mr. Tidwell. Madam Chair, we'll be glad to provide that 
information.
    The Chairman. Good. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    And thank you, Chief Tidwell, welcome to the Committee 
today. I apologize for being late. We had an amendment on the 
Floor and several other Committee hearings today, so I thank 
you for sticking through this hearing with us.
    I had a meeting right before this hearing with the Mayor of 
Nederland, Colorado, which is right by the Arapaho Roosevelt 
National Forest in Boulder County. One of the biggest concerns 
Mayor Larson expressed to me was his concern about what happens 
in the urban interface now with what seems to be an increasing 
number of campers who are coming in, but these are not just 
ordinary sort of campers who are there for the weekend. They 
are almost a permanent camp, encampment, that is creating fire 
risks--according to the Mayor--and creating litter and law 
enforcement challenges.
    According to the Mayor, the Arapaho Roosevelt National 
Forest basically has one officer for the entire region and was 
talking about ways that we could, maybe, help out, he mentioned 
drug paraphernalia that is being found in these sites.
    Is there a law enforcement initiative or effort that we 
could help with that might address some of these concerns so 
people who want to go--law-abiding citizens who want to go--and 
enjoy the forests are not either deterred from that experience 
or have less enjoyment because of these kinds of activities?
    Mr. Tidwell. Well Senator, there's a couple things that we 
could do.
    First, since you brought this to my attention, I'll talk 
with our law enforcement officers to see if we can't shift some 
additional resources there. Often we can bring some additional 
folks in for a short period of time to address the problem. 
Also, to see what else we can do with the counties, through our 
co-op law fund to be able to apply----
    Senator Gardner. And I want to make sure that I am not 
criticizing you--I think you are doing work with it--and that 
there are some additional efforts they are doing. I want to 
thank you for that too.
    So----
    Mr. Tidwell. But I think also through our co-op of law 
agreements which we have with the sheriff there where we work 
in conjunction to be able--because when we get these situations 
that sometimes occurs and we can get in there and inform people 
that here's the, you know, the limits on camping, et cetera and 
they're not, you know, sometimes we do get folks that are 
living on the national forests for a variety of reasons. And we 
just need to help them to be able to move on before this gets 
really established. Once it gets established it's much more 
difficult. So I appreciate you bringing it to my attention, and 
we'll look into see what additional resources we can provide.
    Senator Gardner. Thanks, Chief.
    Of course, if there is a way that we can work with the 
Forest Service on the solution, long-term too, we are happy to 
help look at that and I know there are resource issues involved 
as well. We are happy to help address some of those questions.
    You and I have talked about this before, the fact that 
Colorado's economy is so reliant on the outdoor economy, the 
recreation, and the incredible partnerships that are necessary 
to enjoy our great outdoors. If you look at the vast number of 
ski resorts, ski areas, in the state many of them are entirely 
located, if not at least partially, on the national forests. 
For the fourth season in a row, the state ski resorts have sent 
record-setting revenue back to the U.S. Treasury Department. 
During the 2015-16 ski season, I believe Colorado ski resorts 
sent back about $25+ million to the Treasury.
    I have talked to you, your staff, about this and the Forest 
Service is challenged in keeping up with the growing recreation 
industry as we see more uses of the forests, both in the summer 
as well as the winter, and now new summer activities.
    The White River National Forest staff and budget steadily 
eroded over the past several years. We have talked about this 
before. We are working on legislation with Senator Wyden. What 
is the Forest Service's plan to help address this erosion of 
local capacity to serve recreation that is critical to so many 
of our communities?
    Mr. Tidwell. Well Senator, the thing that I think is key to 
address this problem is simply, we have to find a solution to 
the cost of wildfire suppression funding. It continues to erode 
our capability.
    As I pointed out to the Senators earlier today, just 
between FY'16 and '18, the 10-year average goes up $156 
million. And that's not a one-year cost. That's there, and so 
if you look at that over the next 10 years, you know, it's $1.5 
billion.
    Senator Gardner. Yes.
    Mr. Tidwell. So you think about if we can find a solution 
to that, how we could reinvest that type of funding and to be 
able to address this.
    The point you make with ski areas and especially as we move 
to now four-season ski areas, which we're really encouraging 
these operators to expand their operations beyond just the 
winter. They have the infrastructure, they have the facilities 
and it's a safe environment for folks. But we need to be 
responsive to their request for adding additional facilities, 
and it is frustrating at times that we cannot respond to 
another great set of partners.
    And we're doing what we can to be able to find more and 
more efficiencies, but I'll tell you, the reality of it is with 
our recreation funding, like all of our programs, just continue 
to have this pressure of having to deal with the cost of 
dealing with wildfire suppression.
    Senator Gardner. I think that is something that we have to 
address, this issue of wildfire borrowing, putting it into 
that, absolutely.
    Just a quick question on the Executive Order that was 
signed in April by the President. It was titled, ``Promoting 
Agriculture and Rural Prosperity in America.'' There was this 
phrase, ``The task force shall identify legislative, regulatory 
and policy changes to promote rural America . . . including 
changes that,'' paragraph 9, ``ensure that water users' private 
property rights are not encumbered when they attempt to secure 
permits to operate on public lands.''
    This Executive Order was issued in April, but the Forest 
Service has yet to remove its guidance on acquiring water 
rights and has also offered testimony that seems critical of 
the Water Rights Protection Act in the House just a couple of 
weeks ago. And that was a bill that was designed to protect 
against the Federal Government trying to put in place a permit 
condition of the cost of private water rights.
    I want to make sure that I understand that--and I hope the 
answer is--that water rights owners are going to continue to 
enjoy their private water rights without facing federal 
overreach. If you could respond to that.
    Mr. Tidwell. You know, Senator, we rely on the state laws 
when it comes to, you know, dealing with water. Our sole effort 
on this is really one thing--by keeping the water with the 
land, we can maintain multiple use.
    And so, we were able to work out agreements with the ski 
areas so that they took on that burden to ensure that the water 
would stay, would be there available for the permits so that we 
can ensure that people can continue to ski into the future, no 
matter how tight water supplies get.
    It's the same thing with our grazing permits. You take that 
water off the land, we eliminate livestock grazing. And so, we 
want to work with the states and work with our permitees to be 
able to maintain that multiple use.
    But water rights are controlled by state law, and we 
respect that, but our sole focus is simply being able to keep 
water on the land so we can continue multiple use. So we work 
with the states to be able to address that.
    Senator Gardner. I appreciate that.
    Can I get your commitment that there will not be any kind 
of a condition in a permit or permit approval to require a 
bypass flow as a condition of the permit grant?
    Mr. Tidwell. Well, I think we need to look at, you know, 
the issues there. And I know this is at times, controversial 
with, you know, our current authority to be able to provide for 
bypass flows. But if we eliminate that water--so you eliminate 
potentially grazing, you eliminate fisheries, you eliminate 
water for wildlife. That's why we need to find, I think, a 
balance.
    And just----
    Senator Gardner. But balance has to be achieved under state 
water law?
    Mr. Tidwell. Well, it's my understanding, I think, even in 
Colorado with us when it comes to like the state lands, that 
they require that water to be able to be retained onto the 
land, to be able to provide that mix. So----
    Senator Gardner. Unless the water is judiciously decreed a 
water right?
    Mr. Tidwell. Yeah, yeah, yes.
    And so, I mean, we recognize, you know, the state water, 
but I think there's some benefit to the public for us to be 
able to maintain our ability to condition diversion points and 
to condition access to ensure that folks can use their water, 
but be able to do it in a way that we can also provide for 
multiple use.
    Senator Gardner. So you are telling me that you are willing 
to condition a permit by requiring someone to keep their water?
    Mr. Tidwell. I think that the--if you look at our practices 
that--and I've had to deal with many of these issues throughout 
my career----
    Senator Gardner. That would be----
    Mr. Tidwell.----where we've been able to sit down and work 
with the water owners, people that have the water rights and be 
able to work with them to provide, be it bypass flows or 
sometimes just to provide water for wildlife at a spring 
development. And we've been able to do it in a way that they 
can access their water but at the same time, we can continue to 
provide for multiple use.
    So I think it's----
    Senator Gardner. Well, understand if it is, I mean, look a 
water right is a water right. It is not the Federal 
Government's.
    Mr. Tidwell. Right.
    Senator Gardner. It is an individual's private water right.
    Mr. Tidwell. It's a water right.
    Senator Gardner. And so, if an individual who is reliant on 
a grazing permit is then subjected to a process where you will 
only grant the grazing permit if they give up their private 
water right, that is kind of an unfair bargaining position.
    Mr. Tidwell. I agree with you, and that's not what we want 
to do. We want to keep the water there for the livestock 
operator.
    What I'm talking about is when we have someone that wants 
to divert that water off of the national forest so there's no 
longer water left for livestock grazing. That's when we feel 
that we need to use our authority to be able to continue to 
provide water for livestock or for wildlife, and at the same 
time provide the owner of the water right, you know, access to 
their water. But it's about just being able to maintain 
multiple use.
    And so, you know, throughout my career we've always been 
able to work out these issues by working with the owner of the 
water to provide whether it's some instream flow or for, 
provide some water for wildlife or for livestock, but at the 
same time to be able to provide--and sometimes they have to 
change the appointed diversion. Sometimes, you know, and then 
once the water leaves the national forest it's, you know, they 
can, of course, do anything they want with it.
    But I recognize the need to be able to have the diversion 
points high up in the watersheds. But we just need to be able 
to work together on this to be able to define, you know, that 
agreement, with following, you know, the state water law. So 
we're not requiring people to transfer their water rights but 
we do want to work with them to be able to provide water on the 
national forest for multiple use.
    Senator Gardner. Well, I hope that we can continue this 
conversation because I do think that it is a matter of 
protection of private water rights. We have to be very, very 
clear on this point.
    Thank you for allowing me to go significantly over my time.
    The Chairman. I appreciate that, and I am glad you had the 
opportunity.
    Chief, I had raised last week the issue of the effort to 
acquire lands at Cube Cove on Admiralty from the Shee Atika 
Native Corporation. We have a split estate issue. You know the 
issue. The Forest Service is only acquiring the surface rights. 
We have pretty good reason to believe that there are 
opportunities for minerals in the subsurface. Your staff in 
Alaska has been working, trying to find a solution to gain the 
subsurface to these lands. I am going to ask you to get back to 
us in terms of any progress that has been made on agreement 
with Sealaska to acquire the subsurface to the 22,000 acres 
that you have signed an agreement to purchase.
    I would ask you to respond to that one in writing.
    The last question that I want to ask--and the time is up on 
this vote so I am going to have to scoot here--but Secure Rural 
Schools. You have so many members of this Committee that are 
struggling to find the answers. Our Committee had a hearing not 
too many weeks ago on this topic, and legislation to 
reauthorize the program has been introduced. Does this 
Administration support the Secure Rural Schools program?
    Mr. Tidwell. So Madam Chair, we do not have a 
recommendation in our budget request for this year.
    The Chairman. I understand that it is not in there.
    Mr. Tidwell. No.
    The Chairman. And that sends some signal, but I guess a 
more direct and pointed question is whether or not you support 
the reauthorization of SRS funding?
    Mr. Tidwell. I have not had those discussions with the 
Secretary yet. I can speak at length about the benefit of the 
program and the need to provide some certainty and a safety net 
to our counties and our boroughs. I think the Secure Rural 
Schools program has proven to be an essential program for those 
reasons and at the same time, you know, we're committed to 
being able to, you know, increase the amount of work that's 
occurring to increase more revenues.
    But the reality of it with markets, especially, there's 
always going to be tremendous fluctuation in those payments to 
the counties and the boroughs. I think it just really justifies 
a need for a program to provide that level of certainty and a 
safety net that they can rely on year after year. I can only 
begin to appreciate what the counties and the boroughs have to 
do when they are not sure how much they're going to receive 
next year.
    The Chairman. Right.
    Mr. Tidwell. Or have such a significant reduction. It's a 
very difficult situation for them. And I just, I believe 
strongly we need a solution.
    The Chairman. It is a roller coaster. It is a roller 
coaster that causes stress. People that do not have the money 
put together, fly-ins to come out here, literally begging us.
    Senator Wyden and I have this conversation, as I do with my 
Ranking Member, Senator Cantwell, about where this puts these 
communities because they do not have that certainty. While it 
may not look like a large amount of money, in some communities 
you are talking $350,000, it may be one-third of their budget 
for that small community.
    And so, recognizing the importance of it, it is something 
if you have not had that conversation with the Secretary, know 
that I have, know that others have, and trying to find that 
solution that offers to some greater certainty to our 
communities is a place that we need to get because right now 
there is panic in a lot of small towns in rural America and 
many in Alaska.
    Chief, I am sorry that we do not have more time, but I am 
going to go vote. I know that others will have questions that 
they will submit to you.
    I appreciate that all the budgets that we are dealing with 
right now, in many areas, are not adequate to meet the need as 
we deal with budget realities. But know that this Committee is 
eager to work with you to define how we get good value out of 
those federal dollars, how we work to make management work 
within our forests. We have some work ahead of us but 
communication is going to go a long way, and I appreciate you 
being here today and working with, not only myself, but other 
members of the Committee to help effectuate that.
    With that, we stand adjourned.
    [Whereupon, at 12:13 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
